                                  EVALUATION




 BUREAU OF LAND MANAGEMENT
 AND BUREAU OF INDIAN AFFAIRS
 BRIDGE SAFETY PROGRAMS




Report No.: ER-EV-MOA-0002-2011       April 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                              APR 12 2012
Memorandum

To:            Marcilynn Burke, Assistant Secretary, Land and Minerals Management
               Larry Echo Hawk, Assistant Secretary - Indian Affairs

From:          Mary L. Kendall                   _ _ . .__.~"-L/-uf
               Acting Inspector Gene

Subject:       Final Evaluation Report- Bureau of Land Management and Bureau of Indian
               Affairs Bridge Safety Programs
               Report No. ER-EV-MOA-0002-2011

       This memorandum transmits our final evaluation report on the Bureau of Land
Management (BLM) and the Bureau of Indian Affairs (BIA) bridge safety programs. During this
evaluation, we found that BLM and BIA did not comply with National Bridge Safety Inspection
Standards (Standards). The Standards mandate minimum safety requirements for the inspection
of highway bridges located on all U.S. public roads.

        Specifically, we found that BLM had never submitted its full bridge inspection data to the
National Bridge Inventory, a database designed to capture data for bridges inspected to the
Standards. We found inventory management errors at BIA, causing bridge inspection timetables
to be missed and bridges belonging to BIA to go unidentified and uninspected. In addition, we
uncovered contracting issues at BIA that could diminish the ability of the bureau to meet future
bridge inspection requirements.

        Our report includes six recommendations designed to improve oversight of the BLM and
B IA bridge safety programs. Based on management's response to the draft report (see Appendix
2 and Appendix 3) we consider recommendation 1, 3, and 4 to be resolved and implemented, and
recommendations 2, 5, and 6 to be resolved but not implemented (see Appendix 4). Accordingly,
no further response to the Office oflnspector General (OIG) on this report is necessary.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       We appreciated the cooperation and assistance of the BLM and BIA staff. If you have
any questions about this report, please do not hesitate to contact me at 202-208-5745.




                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 3
    Public Safety Requirements ............................................................................... 3
    Database Management ....................................................................................... 5
    Bridge Inventory Discrepancies ......................................................................... 6
    Contracting Concerns ......................................................................................... 7

Conclusion and Recommendations ......................................................................... 9
   Conclusion........................................................................................................... 9
   Summary of Recommendations .......................................................................... 9

Appendix 1: Scope and Methodology................................................................... 12
   Scope ................................................................................................................. 12
   Methodology ..................................................................................................... 12

Appendix 2: BLM Response................................................................................. 13
Appendix 3: BIA Response .................................................................................. 18
Appendix 4: Status of Recommendations ............................................................. 21
Results in Brief
The National Bridge Safety Inspection Standards (Standards) establish criteria
against which the thoroughness of bridge safety inspections is measured. As the
bridge inspection industry standards, they require inspection data to be submitted
at the request of the Federal Highway Administration (FHWA) for inclusion in
the National Bridge Inventory (NBI). NBI provides a retrievable record of actions
taken to ensure the safety of bridges.

We found that the Bureau of Land Management (BLM) and the Bureau of Indian
Affairs (BIA) did not comply with the Standards. Prior to our review, BLM never
submitted its bridge inspection data for inclusion in NBI. We also found that
BLM did not know the exact number of bridges in its inventory. Consequently,
some inspection reports did not contain pertinent information such as bridge load
capacity and data pertaining to erosion and water damage. Such data is critical
when assessing the structural integrity of bridges and determining their safety for
public use.

We also found that while BIA required its bridge inspectors to follow the
Standards, the completeness and accuracy of data maintained in the Bureau’s
bridge inventory could not be validated in every instance. We also identified
contracting issues that need to be resolved for the Bureau to comply with Federal
requirements and to ensure the validity of its bridge inspections.

Compliance with the requirements of the Standards provides the greatest
assurance that Bureau bridges are as safe as possible for public use.




                                                                                    1
Introduction
Objective
The objective of this evaluation was to determine whether accurate data was
submitted to the Federal Highway Administration (FHWA) for the National
Bridge Inventory (NBI).

Background
The Bureau of Land Management (BLM) and the Bureau of Indian Affairs (BIA)
currently are collectively responsible for approximately 1,432 public bridges
(BLM estimates 500 and BIA 932).

Bridges that are publicly accessible and greater than 20 feet long must meet the
National Bridge Safety Inspection Standards (Standards) found in 23 C.F.R. Part
650. The law requires that all state, county, local, and Federal bridges meeting
this criteria follow the Standards, which describe inspection procedures,
inspection frequency, inspector qualifications, and inventory requirements. The
Standards require bridges to be inspected once every 2 years and the collected
data to be submitted at the request of Federal Highway Administration (FHWA)
for the National Bridge Inventory (NBI). FHWA is responsible for maintaining
this database and has historically requested that agencies provide inspection data
on an annual basis.

Compliance with the requirements of the Standards provides the greatest
assurance that bridges are as safe as possible for public use.




                                                                                     2
Findings
The Standards contain specific guidelines to detect deterioration, identify critical
findings from inspections, and help ensure that appropriate corrective action is
taken by bridge owners to maintain bridges used by the public. Federal bureaus
responsible for the safety of American bridges are expected to follow the
Standards and report information to FHWA for inclusion in NBI.

Historically, BLM has not submitted data for inclusion in NBI, a database that
houses inspection information on public bridges. BLM also has significant data
gaps for bridges in its property inventory and has demonstrated inconsistencies in
conducting inspections to the Standards.

We found that a combination of internal issues regarding the accuracy of BIA’s
bridge data and its ability to conduct timely bridge inspections places the bureau
at risk of not fully complying with the Standards.

Public Safety Requirements
To ensure bridge safety, agencies are required to inspect their bridges to specific
criteria detailed in the Standards. Data from these inspections are then submitted
to FHWA for inclusion in NBI. According to FHWA, BLM has approximately
500 bridges that should be reported. In spite of repeated requests from FHWA,
however, BLM never submitted information relative to the safety of its bridges
until this OIG evaluation.

Historically, BLM disputed that its bridges fall under the requirements of the
Standards. The Bureau argued that its bridges only serve administrative purposes,
are considered non-public, and, therefore, are not required to be inspected in
accordance with the Standards. BLM’s interpretation conflicts with FHWA’s
definition of a public bridge—any bridge accessible by the public at any point
during a year. For a bridge to be defined as non-public by FHWA, it must be
behind a locked gate or other obstruction 365 days a year. Bridges that do not
meet these criteria must be inspected to ensure compliance with the Standards and
the results submitted at the request of FHWA for inclusion in NBI.

At the time of our evaluation, BLM does not know the number of publicly
accessible bridges in its inventory, the number of bridges that are behind locked
gates, or the level of vehicular traffic that crosses BLM bridges at any given time.
Without such knowledge, BLM has no assurance that all bridges are included in
its inventory and that all bridges have been inspected to ensure bridge safety.

We inspected BLM-owned bridges in Oregon to determine the validity of BLM’s
administrative use claim in comparison to FHWA’s definition of a public bridge.
Seventy-eight percent of the bridges we visited in Oregon proved to be accessible
by public vehicular traffic (18 of 23 bridges). We found no locked gates or any

                                                                                       3
other barrier to prevent the public from accessing these 18 bridges. Based on our
observations we concluded that, at a minimum, the bridges we visited are publicly
accessible and should be added to NBI.




Figure 1. Photo of site adjacent to publicly accessible bridge that BLM considers
administrative.

During our review, we issued BLM a Notice of Potential Finding and
Recommendation (NPFR) to encourage the Bureau to develop policies designed
to classify publicly accessible bridges as “public” in accordance with 23 CFR Part
650 and to take immediate corrective action by submitting data on NBI-eligible
bridges to FHWA. In response to our NPFR, BLM began taking such action and
initiated data submission to FHWA for NBI. BLM indicated their intention of
submitting 69 of its bridges that have already been inspected to Standards for
inclusion in the NBI.

BLM does have complete data available to submit on approximately half of its
NBI eligible bridges. This is because it contracts with FHWA to have those
bridges inspected to the Standards. Its remaining bridges are inspected by BLM
personnel, using criteria established by the Bureau that does not completely
mirror the same information required by NBI. Consequently, certain inspection
data have been omitted from these Bureau-inspected bridges. Critical information
missing from reports include load data, which is necessary to determine the
maximum vehicle weight the bridge can safely handle, or scour data, which is
used to assess the degree of erosion and water damage to piers and abutments for
structures spanning rivers or streams. The absence of such data critical to
determining the safety of these bridges offers no assurance that BLM inspections

                                                                                    4
are conducted at a level consistent with what would be required to ensure
adequate bridge safety.

Database Management
BLM’s bridge database management has multiple issues, many of them resulting
from an absence of policy guidance. Currently data collection occurs chiefly
through paper reports. Although BLM has electronic management capability
through its Facility and Asset Management System (FAMS) to record bridge
inspection information, use across field offices and among regions is inconsistent.
While inspectors can add bridge inspection data to FAMS, no bureau requirement
compels them to do this. Because data is entered inconsistently, BLM has no
assurance that the data in FAMS is reliable or accurate.

Even if BLM inspectors digitized inspection results into FAMS, its current
configuration does not contain the fields required for NBI. Estimates by BLM
personnel suggest that paper reports contain approximately 80 percent of NBI-
required data, but that only 10 percent of this data has been transcribed into
FAMS. The data gap between the data available in FAMS and the remaining data
contained in paper reports calls into question BLM’s ability to accurately manage
critical information needed to determine a bridge’s safety rating. By BLM's own
admission, it has not collected pertinent NBI-required data such as load ratings for
bridges, which are inconsistently documented on paper reports. Where such data
has been absent in the paper reports, unvalidated figures have been inserted into
the database to prevent the missing data being flagged by an automated NBI file
error checking process. In addition, BLM personnel indicated that scour analysis
calculations for bridges across the bureau were similarly incomplete.
Consequently the bureau could not adequately ascertain the extent of bridge pylon
erosion due to water damage.

BLM has no policies requiring field-level personnel to collect NBI- required data,
no mechanism to ensure the accuracy of inspection data, and FAMS does not
capture the required data. In response to these issues, BLM is: (a) drafting
guidelines for data collection and (b) populating a spreadsheet with data currently
stored in FAMS or retrieved from paper inspection reports.

FHWA personnel are working with BLM to identify additional data gaps. FHWA
also has asked BLM to submit all available data, even if incomplete.




                                                                                  5
 Recommendations

    The Director, Bureau of Land Management should:

        1. Develop policies and timelines to identify and classify bridges that
           are defined as “public” in accordance with 23 C.F.R. Part 650.

        2. Submit remaining data for its qualifying public bridges to FHWA for
           inclusion in the National Bridge Inventory.

        3. Develop and implement plans and procedures to verify the Bureau’s
           bridge inventories and ensure that all public bridges are inspected in
           accordance with the Standards.

        4. Develop and implement a process to collect, maintain, and report
           required data to meet the Standards.


Bridge Inventory Discrepancies
BIA complied with requirements to submit their data to FHWA for inclusion in
NBI. The Bureau, however, demonstrated issues with the completeness and
accuracy of submitted data. Record-keeping errors in BIA’s current database
caused structures not to be scheduled for inspection and thus not to meet FHWA’s
2-year inspection requirement. These issues included the following:

   •   bridges unintentionally left off the bureau’s inventory list;
   •   bridges designated for inventory removal at tribal request that still remain
       on the list;
   •   bridges that have been replaced but not given new bridge designation
       numbers;
   •   bridges that have been replaced and have new designation numbers, but
       still have the old designation numbers in the inventory, resulting in
       duplication of structures;
   •   bridges closed to vehicular traffic but not removed from the inventory list;
       and
   •   a bridge not actually owned by BIA but listed on the inventory.

Additionally, at the time of our evaluation, BIA had not physically accounted for
all of the NBI-eligible bridges in its inventory. In a site visit to the greater
Phoenix area, we identified bridges belonging to BIA that were not included in its
bridge inventory. One bridge crossed the 1930s-era Coolidge Dam on the San
Carlos Apache reservation. Ownership of a smaller bridge downriver from
Coolidge Dam also could not be immediately determined. At the time of our site


                                                                                    6
visit, BIA could not identify who owned either bridge. BIA personnel initially
believed that USBR owned the Coolidge Dam and overlaying bridge.

When USBR informed us that it did not own or maintain either the dam or the
bridge, BIA investigated further. Officials later acknowledged that BIA in fact
owned both of these bridges. By the end of our fieldwork, these structures still
had not been identified in BIA’s inventory and, therefore, were not on their
inspection schedule.




Figure 2. Coolidge Dam structure.

Such discrepancies raise concern about BIA’s ability to ensure complete accuracy
of its database; ensure the timeliness of its bridge inspections; and ensure the
safety of the bridges the Bureau manages. Although the Bureau is working
aggressively to correct these deficiencies by the 2012 NBI reporting cycle, BIA
program personnel have expressed concerns about the Bureau’s ability to meet the
required inspection deadlines. They cite the Bureau’s failure to meet previous
deadlines because staff could not award an inspection contract quickly enough to
meet reporting requirements.

This developed because, historically, BIA has used a centrally managed Indefinite
Delivery, Indefinite Quantity (IDIQ) contract for bridge inspections that require
task orders to be issued against this contract. A communication failure between
BIA bridge program personnel and BIA procurement staff led program personnel
to believe that task orders could no longer be issued against the centrally managed
IDIQ contract but rather that each inspection needed to be competed as an
individual contract.

                                                                                   7
Recommendations

   The Director, Bureau of Indian Affairs, should:

    5. Develop and implement plans and procedures to verify the accuracy
       of the Bureau’s bridge inventories.

    6. Develop and implement a plan to ensure that the Bureau’s bridge
       inventory is accurate and that inspections are performed consistently
       and on time to meet NBI requirements.




                                                                               8
Conclusion and Recommendations
Conclusion
BLM and BIA need to improve management oversight and documentation of the
bridges in their inventories. We found that BLM never submitted bridge data for
NBI inclusion prior to our evaluation. Subsequently, even though BLM has
submitted data, the agency still is not in full compliance with the Standards. In
addition, its data management gaps have the potential to result in safety issues of
significant concern to the bureau and the public.

BIA also has data management issues that have led to an inability to identify
bridges in their inventory and, thus, ensure timely inspection schedules. The
Bureau has contracting issues that need to be addressed both to meet Federal
requirements and to ensure that inspections are conducted in keeping with the
Standards.

We believe both bureaus could not only increase the reliability and effectiveness
of their bridge inspection practices, but also improve bridge safety by following
the recommendations presented in this report.

Summary of Recommendations
   The Director, Bureau of Land Management should:

   1. Develop policies and timelines to identify and classify bridges that are
      defined as “public” in accordance with 23 C.F.R. Part 650.

        BLM Response: BLM concurred with the recommendation. BLM has
        issued an Instruction Memorandum (IM) 2011-198, entitled Compliance
        with the National Bridge Inspection Standards, dated September 28, 2011.
        The IM directs state offices to complete and submit National Bridge
        Inventory (NBI) data. BLM has identified and submitted data to FHWA
        on 438 bridges deemed “public” in accordance with 23 C.F.R. Part 650
        and submitted for inclusion in the 2012 NBI.

        OIG Analysis of BLM Response: Based on BLM’s response, we
        consider this recommendation resolved and implemented.

   2.   Submit remaining data for its qualifying bridges to FHWA for inclusion in
        the National Bridge Inventory.

        BLM Response: BLM concurred with the recommendation. BLM has
        submitted data to FHWA for its NBI-qualified bridges but indicates that
        approximately 20 percent of these bridges lack load rating data. BLM
        indicates that the rating determinations for these bridges will be submitted

                                                                                      9
     to FHWA during fiscal year 2013. BLM has established a target date of
     July 15, 2013.

     OIG Analysis of BLM Response: Based on BLM’s response, we
     consider this recommendation resolved but not implemented.

3.   Develop and implement plans and procedures to verify the Bureau’s
     bridge inventories and ensure that all bridges are inspected in accordance
     with the Standards.

     BLM Response: BLM concurred with the recommendation. BLM has
     issued an Instruction Memorandum (IM) 2011-198, entitled Compliance
     with the National Bridge Inspection Standards, dated September 28, 2011.
     BLM’s guidance includes procedures for verifying the inventory and
     ensuring regular inspections in compliance with NBIS. According to
     BLM, state offices have verified and submitted their inventories to BLM
     headquarters, which, in turn, forwarded the data to the FHWA in
     December of 2011. BLM also indicates that future submissions and
     updates will be completed annually per FHWA requirements.

     OIG Analysis of BLM Response: Based on BLM’s response, we
     consider this recommendation resolved and implemented.

4.   Develop and implement a process to collect, maintain, and report required
     data to meet the Standards.

     BLM Response: BLM concurred with the recommendation. According to
     BLM, their Instruction Memorandum (IM) 2011-198 supplements existing
     policies and includes guidance on standardization of processes for the
     collecting, maintaining, and reporting of required data to meet NBI
     Standards. BLM indicates that state offices submitted their data to BLM
     headquarters, which, in turn, has been forwarded to FHWA in December
     2011. BLM has indicated that future submissions and updates will be
     completed annually per FHWA requirements.

     OIG Analysis of BLM Response: Based on BLM’s response, we
     consider this recommendation resolved and implemented.

The Director, Bureau of Indian Affairs, should:

5. Develop and implement plans and procedures to verify the accuracy of the
   Bureau’s bridge inventories.

     BIA Response: BIA concurred with the recommendation. The BIA
     indicated that they will continue to use their bridge management software
     application to verify the accuracy of the BIA bridge inventory. In addition,

                                                                              10
   BIA indicated they are in the process of developing a Bridge Safety and
   Inspection Manual designed to address procedures for submitting,
   verifying, and reviewing data for inclusion in the NBI. The anticipated
   completion date for the manual is August 30, 2012.

   OIG Analysis of BIA Response: Based on BIA’s response, we consider
   this recommendation resolved but not implemented.

6. Develop and implement a plan to ensure that the Bureau’s bridge
   inventory is accurate and that inspections are performed consistently and
   on time to meet NBI requirements.

   BIA Response: BIA concurred with the recommendation. BIA has
   indicated that task orders have been issued (as of August 16, 2011) for the
   inspection of all BIA bridges. BIA indicated that a new process has been
   developed whereby all bridges will be inspected on the same interval or
   cycle and that the new schedule allows for more time between awards for
   contract negotiation. BIA believes that this will alleviate past problems
   that led to delays in awarding of contracts and missed submission dates of
   NBI required data to FHWA.

   OIG Analysis of BIA Response: Based on BIA’s response, we consider
   this recommendation resolved but not implemented.




                                                                             11
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the “Quality Standards for
Inspections” issued by the Council of Inspectors General on Integrity and
Efficiency. The evaluation focused on determining if accurate data was submitted
for BLM and BIA owned bridges. In order to determine this, we evaluated the
bureaus’ compliance with national standards.

Methodology
As part of our evaluation, we:

   •   obtained a general understanding of bridge programs managed by BIA,
       BLM, FWS, NPS, and USBR;
   •   conducted site visits and interviewed officials from the various bureaus;
   •   interviewed FWHA officials;
   •   reviewed documentation and reports internal to the respective bureaus and
       the sites we visited;
   •   reviewed laws and regulations that prescribe the bridge programs on
       Federal lands;
   •   visited BLM sites in the state of Oregon to determine the accessibility of
       bridges classified as “administrative;” and
   •   visited BIA sites in the state of Arizona.




                                                                               12
Appendix 2: BLM Response
The Bureau of Land Management’s response to the draft report follows on page
14.




                                                                               13
                    United States Department of the Interior
                              BUREAU OF LAND MANAGEMENT
                                       Washington, D.C. 20240                               TAKE PRIDE
                                        http://www.blm.gov                                  INAMERICA


                                              MAR -1 2012
In Reply Refer To:
1245/9112 (830/854)


Memorandum



                                                             Inspections, and Evaluations
To:            Kimberly Elmore
                                                    udits,
Through:
               Acting Assistant   Sedr~~y -   Lan     nd Minerals Management

From:
                ?bertV.~
               Director
                       ey ;7~
Subject:       Office of the Inspector General Evaluation Draft Report, Bureau of Land
               Management and Bureau of Indian Affairs Bridge Safety Programs (ER-EV-
               MOA-0002-20 11)

Thank you for the opportunity to review and comment on the Office of Inspector General's
(OIG) draft Evaluation Report: "Bureau of Land Management and Bureau of Indian Affairs
Bridge Safety Programs" (ER-EV-MOA~0002-2011). The Bureau of Land Management (BLM)
appreciates the work of the OIG, and the OIG's recognition that the BLM has taken significant
steps to improve its Bridge Safety Program. The purpose of the OIG's evaluation was to
determine whether the BLM and BIA submit accurate bridge safety inspection data to the
Federal Highway Administration (FHW A) as required under the National Bridge Inspection
Standards (NBIS). The NBIS establish national standards for conducting bridge safety
inspections for all state, county, local, and Federal bridges that are publicly accessible and
greater than 20 feet long, and requires submission of the bridge inspection data on an annual
basis to the FHW A for inclusion in the National Bridge Inventory (NBI).

The OIG evaluation found that the BLM and BIA do not comply with the NBIS, including the
requirement to submit inspection data to the FHWA. The OIG's report issued a total of six
recommendations to increase the reliability and effectiveness of bridge inspection practices and
the overall safety of the Federal bridges administered by the BLM and the Bureau of Indian
Affairs (BIA). Recommendations 1-4 are directed to the BLM, and recommendations 5 and 6
are directed to the BIA. This response addresses the BLM-specific recommendations. The BIA
will respond to recommendations 5 and 6 under separate cover.

The BLM concurs with the recommendations specific to the BLM. Historically, although the
BLM consistently referenced the NBIS in conducting bridge safety inspections, the BLM did not
consider the bridges it administered to be "public" as defined by the NBIS and as a result did not




                                                                                                  14
                                                                                         2

believe it was required to comply with the NBIS reporting require1nents. Based on the OIG's
evaluation, the BLM reconsidered its interpretation and determined that certain bridges are
"public" and therefore fall under the NBIS Standards. The attachment provides the actions taken
to date which demonstrate the BLM ' s efforts to comply with the NBIS, as well as additional
steps underway in response to the four recommendations.

When the OIG began its review, it issued a notice of preliminary findings and recommendations
in April2011 related to the BLM' s submission of bridge inspection data to the FHWA' s NBI.
At that time, the OIG determined that the BLM' s policies and practices did not adequately
address the requirement for submitting BLM data to the NBI. In September 2011 , the BLM
issued new policies requiring submission and verification of bridge inspection data. The BLM
also has completed additional bridge inspections, received updated and verified data from BLM
field organizations, and submitted its inventory of 438 bridges to the FHWA NBI. At present,
the BLM believes it is in compliance with the NBI requirement and has taken significant steps to
address the OIG recommendations.

If you have any questions, please contact Luis V. Coppa, Chief, Branch of Engineering and
Asset Management Policy, at 202- 912-7050, or LaVanna Stevenson, BLM Audit Liaison
Officer, at 202-912-7077.


Attachment
Response to the Office of the Inspector General Evaluation Draft Report, Bureau of Land
          Management and Bureau of Indian Affairs Bridge Safety Programs
                                (ER-EV -MOA-0002-2011)

Recommendation 1: Develop policies and time lines to identify and classify bridges that are
defined as "public" in accordance with 23 C.F.R. Part 650.

Response: The BLM issued Instruction Memorandum (IM) 2011-198, entitled, Compliance
with the National Bridge Inspection Standards (NBIS), on September 28, 2011, which directs the
BLM state offices to complete and submit National Bridge Inventory (NBI) data. Through the
process established in the IM, the BLM identified 43 8 bridges as "public" in accordance with 23
C.F.R. Part 650 and submitted the data to the NBI. By April2012, the Federal Highway
Administration (FHWA) according to its schedule should have incorporated the BLM's NBI
data. Future submissions and updates will be completed annually per FHW A requirements.

Target Date: April 30, 2012.

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources

Recommendation 2: Submit remaining data for its qualifying bridges to FHWA for inclusion in
the National Bridge Inventory.

Response: While the BLM has submitted data for its NBI-qualifying bridges, there is a small
percentage of the NBI-qualifying bridges (approximately 20%) that lack load rating data. Load
rating determinations will be submitted for this remaining set ofNBI-qualifying bridges during
fiscal year 2013.

Target Date: July 15, 2013.

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources

Recommendation 3: Develop and implement plans and procedures to verify the Bureau's
bridge inventories and ensure that all public bridges are inspected in accordance with the
Standards.

Response: The BLM 2011-198 IM on compliance with the NBIS directed the BLM State
Offices to complete inspections and submit their NBI data. The policy guidance included
procedures for verifying the inventory and ensuring regular inspections in compliance with the
NBIS. BLM state offices verified and submitted their inventories to BLM Headquarters, where
they were compiled and submitted, adhering to BLM policies, to FHWA in December 2011. The
FHW A according to its schedule should have incorporated the BLM' s NBI data by April 2012.
Future submissions and updates will be completed annually per FHWA requirements.

Target Date: April 30, 2012.

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources
Recommendation 4: Develop and implement a process to collect, maintain, and report required
data to meet the Standards.

Response: The BLM existing policy which was supplemented by the 2011-198 IM on
compliance with the NBIS further directed BLM state offices to complete inspections and submit
their NBI data. These guidelines include a standardized process for collecting, maintaining, and
reporting required data annually to meet the Standards. BLM state offices submitted their data to
BLM Headquarters, where they were compiled and submitted, adhering to BLM policies, to
FHWA in December 2011. By April 2012, the FHWA according to its schedule should have
incorporated the BLM' s NBI data. Future submissions and updates will be completed annually
per FHWA requirements.

Target Date: April30, 2012.

Responsible Official: Janine Velasco, Assistant Director, Business and Fiscal Resources
Appendix 3: BIA Response
The Bureau of Indian Affairs’ response to the draft report follows on page 19.




                                                                                 18
                        United States Department of the Interior
                                       OFFICE OF THE SECRETARY
                                          Washington, DC 20240


                                                 MAR 14 2012
Memorandum

To:              Kimberly Elmore
                 Assistant Inspector General for Audits, Inspections, and Evaluations

From:        ~arry Echo Hawk/J{j/ ~ ~
                Assistant   Secre~ Indian Affairs
Subject:        Draft Evaluation Report- Bureau of Land Management and Bureau oflndian
                Affairs Bridge Safety Programs Report No. ER-EV-MOA-0002-2011

The Office of Inspector General Draft Evaluation Report- Bureau of Land Management and
Bureau oflndian Affairs Bridge Safety Programs Report No. ER-EV-MOA-0002-2011, provided
two recommendations from the subject report to Indian Affairs (lA) for a written response and
implementation of the recommendations. Specifically the report stated that the BIA did not
comply with the National Bridge Inspection Standards (NBIS) in submitting bridge inventory
data to the National Bridge Inventory (NBI).

The following provides the Agency acknowledgement, corrective actions with dates, and
responsible officials for the implementation of Recommendations 5 and 6. Recommendations
1-4 are being addressed by the BLM separate from this response.

The recommendations as a result of the OIG evaluation are as follows:

The BIA should:

      5. Develop and implement plans and procedures to verify the accuracy of the Bureau' s
         bridge inventories.

Recommendation 5. Indian Affairs concurs with this recommendation. The BIA will continue
to use the bridge management software application developed and maintained by the Office of
Chief Information Officer known as the Bridge Management System (BMS) to verify the
accuracy of the BIA bridges. This software prepares the data in the required format for inclusion
in the Federal Highway Administration NBI database, which is a key part of complying with the
NBIS. This recommendation is also being addressed through the development of a BIA Bridge
Safety and Inspection Manual, which is in draft. It is anticipated that the manual will be
finalized by August 30, 2012, by the designated responsible official, Mr. LeRoy Oishi, Chief,
Transportation. Upon review by senior program managers, this manual among other things will
address the procedures for submitting, verifying, and reviewing data for inclusion into the NBI.
    6. Develop and implement a plan to ensure that the Bureau's bridge inventory is accurate
       and that inspections are performed consistently and on time to meet NBI requirements.

Recommendation 6. Indian Affairs concurs with the recommendation and, as of
August 16, 2011, seven task orders have been issued for the inspection of all BIA bridges. The
general inspection schedule was to inspect one-half of the bridges each year. With the new
process, all bridges will be inspected on the same interval or cycle. The new schedule allows
more time between contract awards for our contracting office-consultant negotiations, which was
part of the delay when the Indefinite Delivery- Indefinite Quantity (IDIQ) contracts were under
negotiations per the Brooks Act. The data for inclusion in the NBI will be made on April 1,
2012, by designed responsible official, Mr. LeRoy Oishi.

BIA comments to the report:

The delay in the FY 201 0 inspections was a result of partial funding availability due to the
numerous extensions of the highway act, resulting in only a portion of the funding being
available from U.S. Department of Transportation. Nevertheless the inspections were
completed, but the reporting to the FHWA bridge office, which maintains the NBI, did not
receive the BIA reports on time. Although the reports were not received on time, the safety
inspections were completed and reports to the respective BIA regions for actions were not
delayed.

Specific to the finding of the bridges associated with the Coolidge Dam located on the
San Carlos Apache Indian Reservation, the following is provided:

    1. The BIA does acknowledge the ownership of the bridges over the spillways on either side
       of the dam. The bridges will be inspected under a special inspection and coordinated
       with the BIA Safety of Dams Office in March 2012.

   2. The draft BIA bridge inspection manual provides guidance to all programs and offices
      within the BIA and the Bureau of Indian Education on the inspection of all public bridges
      owned by Indian Affairs. These bridges, if eligible, will be included in a special
      inspection cycle and reported as part of the BIA bridge inventory in the NBI.

   3. The smaller bridge located downstream from the dam is a BIA owned bridge. It has been
      identified as an administrative bridge and not open to the public. It is strictly used for
      maintenance of the dam. Although not required to be included in the NBI, the BIA is
      including this bridge in the special inspection of the two bridges located over the
      spillways of the dam in order to provide a sufficiency rating and deficiency status.

The BIA has determined that steps taken to date, and that are planned, will address the data
management issues leading to the inability to identify bridges in its inventory and ensure timely
inspection schedules. If additional information is needed, please contact Mr. LeRoy Oishi at
(202) 513-7711.
Appendix 4: Status of
Recommendations
Recommendations   Status             Action Required
                  Resolved and       No further response to
1
                  implemented        OIG is required
                                     No further response to
                                     OIG is required. The
                                     recommendation will be
                  Resolved and not
2                                    referred to the Assistant
                  implemented
                                     Secretary for PMB for
                                     tracking and
                                     implementation.
                  Resolved and       No further response to
3
                  implemented        OIG is required
                  Resolved and       No further response to
4
                  implemented        OIG is required.
                                     No further response to
                                     OIG is required. The
                                     recommendation will be
                  Resolved and not
5                                    referred to the Assistant
                  implemented
                                     Secretary for PMB for
                                     tracking and
                                     implementation.
                                     No further response to
                                     OIG is required. The
                                     recommendation will be
                  Resolved and not
6                                    referred to the Assistant
                  implemented
                                     Secretary for PMB for
                                     tracking and
                                     implementation.




                                                            21
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
